HHS/OIG-Audit-"Review of Medicaid Outpatient Psychiatric Services Provided by Saint Barnabas Hospital, Fordham-Tremont Community Mental Health Center for Fiscal Years Ended September 30, 1999," (A-02-00-01032)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Outpatient Psychiatric Services Provided by Saint
Barnabas Hospital, Fordham-Tremont Community Mental Health Center for Fiscal
Years Ended September 30, 1999," (A-02-00-01032)
July 26, 2001
Complete Text of Report is available in PDF format
(793 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
The objective of our review was to determine whether psychiatric
services rendered on an outpatient basis were billed for and reimbursed in accordance
with Medicaid requirements.  Generally, we found that the Hospital received
reimbursement for claims that were reasonable, necessary, and adequately supported
by medical records.  However, our analysis showed that $1,181 (Federal
share $591) of the sampled claims did not meet Medicaid criteria for reimbursement.
Claims found unallowable were for services with insufficient treatment plans
or not properly supported by medical record documentation.